NRC: OIG-00E-08 - Special Evaluation of the Status of NRC'S Website
Skip to Main Page Content
Skip to Search
Skip to Site Map Navigation
Skip to Footer Links
Home
FAQ
Glossary
Facility Locator
What's New
Site Help
Index A-Z
Contact Us
Browse Aloud
Email Updates
Search NRC
Report a Safety Concern
Nuclear Reactors
Power Reactors
Research & Test Reactors
Operating Reactors
Operator Licensing
New Reactors
Advanced Reactors
Operator Licensing for New Reactors
Nuclear Reactor Quick Links
Nuclear Materials
Special Nuclear Material
Source Material
Byproduct Material
Med, Ind, & Academic Uses
Source Materials Facilities
Uranium Recovery
Fuel Cycle Facilities
Materials Transportation
Nuclear Materials Quick Links
Radioactive Waste
Decommissioning of Nuclear Facilities
Low-Level Waste
Waste Incidental to Reprocessing
High-Level Waste
Uranium Mill Tailings
Low-Level Waste Disposal
High-Level Waste Disposal
Storage of Spent Nuclear Fuel
Transporation of Spent Nuclear Fuel
Radioactive Waste Quick Links
Nuclear Security
Domestic Safeguards
Information Security
Radioactive Material Security
Contact Us
Public Meetings & Involvement
The NRC Approach to Open Government
About Meetings Open to the Public
Conferences & Symposia
Documents for Comment
Facilitating Stakeholder Involvement
NRC Information Quality Guidelines
Subscribe to E-mail Updates
Commission Schedule
Public Meeting Schedule
Adjudications (Hearings)
NRC Library
Basic References
Document Collections
ADAMS Public Documents
Public Document Room
Get Copies of Documents
FOIA & Privacy Act Requests
Photos & Video
Records Management
Withholding of Sensitive Information
FAQ Index
Electronic Hearing Docket
About NRC
The Commission
Organization & Functions
Governing Legislation
Plans, Budget, & Performance
Locations
History
Values
Direction-Setting & Policymaking
Radiation Protection
Fire Protection
Safety Culture
How We Regulate
Emergency Preparedness & Response
Public Affairs
Congressional Affairs
International Programs
State & Tribal Programs
Alternative Dispute Resolution Programs
Civil Rights
Contact Us
Career Opportunities
Contracting Opportunities
Grant Opportunities
Print
Home
>
NRC Library
>
Document Collections
>
Inspector General
Reports
>
2000
>  OIG-00E-08
OIG-00E-08 - Special Evaluation of the Status of NRC'S Website
[PDF Version (231KB) ]
Report Synopsis
Introduction
Background
Results
Conclusion
Appendix I : Congressional Inquiry
Appendix II : Glossary of Terms
Appendix III : NRC Organizational Chart
Appendix IV : Major Contributors to This Report
Report Synopsis
On March 7, 2000, the Inspector General (IG) received a letter from several Congressional members asking him to determine the status of the Nuclear Regulatory Commission's (NRC) website, in coordination with the agency's Chief Information Officer (CIO) and Chief Financial Officer.  Because of the requesters' need for an early response to this inquiry and the collaborative working relationship established with the agency on this body of work, the Office of the Inspector conducted a short-term, limited assessment instead of a full audit review.
The Acting CIO reported that the agency is employing the newest technologies to make its website more available to the public by using online forms, multimedia technology, and threaded newsgroups.  The agency also uses its public website to disseminate information in a manner that ensures maximum public access while remaining consistent with the protection of privacy and security.  To meet the intent of Section 508 of the Workforce Investment Act of 1998, the NRC currently provides all high-level web pages in a textual format and is working on a website redesign effort.  In addition, the agency is using its website as a central repository with links to over 20 online comment forms for individual report and programmatic areas.  The Acting CIO also believes that NRC's website is relatively easy to search using its site-wide and topical search engine.  As a means of improving the efficiency and effectiveness of its business activities, the agency is also aggressively pursuing e-commerce.  In our opinion, the responses provided by the agency adequately demonstrate the NRC's focus with regard to its website and the use of e-commerce.
Introduction
On March 7, 2000, the Inspector General (IG) received a request from Congressional representatives asking him to determine the status of the Nuclear Regulatory Commission's (NRC) website.  The Congressional representatives expressed their belief that, in light of increasing e-commerce over the Internet, the Federal Government has the opportunity and responsibility to further the electronic possibilities of Government, including the increased use of e-commerce.  E-commerce is the exchange of goods and services, usually for money, using an Internet website.  The Congressional request, which listed specific questions about the agency's website, further asked that the IG develop his response in coordination with the NRC's Chief Information Officer (CIO) and Chief Financial Officer.
Our objective for this special evaluation was to provide the requested information to Congress as soon as possible.  To accomplish our objective, we informed the NRC's Executive Council (EC)(1) of the Congressional inquiry and requested that the EC members identify staff members to work with OIG on this project.  We coordinated the answers to the questions with the agency and are providing the responses in the body of this report.  Because the request sought an early response, we conducted a short-term, limited assessment of the agency's website rather than a full audit.  Relying on the agency to provide information in response to the questions, we performed limited validation testing on the NRC's information.  Our testing included ensuring the accessability of website addresses, identifying supporting documentation where possible, and interviewing appropriate agency officials.  At a later date, we will explore the value of conducting a full audit of the NRC's website.
Background
The NRC, established by the U.S. Congress under the Energy Reorganization Act
of 1974, is responsible for ensuring that civilian uses of nuclear materials
in the United States are carried out with adequate protection of the public
health and safety, the environment, and national security. The scope of NRC's
responsibility includes regulation of 103 commercial nuclear power reactors;
37 research, test, and training reactors; 8 major fuel fabrication and production
facilities; and 2 gaseous diffusion uranium enrichment facilities. Additionally,
the NRC issues approximately 21,000 licenses for medical, academic, and industrial
uses of nuclear materials. The NRC also has certain regulatory responsibilities
for the transportation, storage, and disposal of nuclear materials and wastes.
The NRC is an independent agency headed by a five-member Commission.  The agency currently has about 2,800 employees and its headquarters are in Rockville, Maryland, with four regional offices located in Pennsylvania, Georgia, Illinois, and Texas.  In addition to its physical locations, the NRC is available to the public through its public website [http://www.nrc.gov/].  For example, the site contains information about the agency's mission and organization, links for news and information, planning and financial management, and public participation and school programs.
Results
Upon OIG's request, the agency independently provided information to support  responses to the questions in the joint request from the Congressmen (see Appendix I).  The NRC also furnished, where appropriate, specific Internet addresses for the sites identified in response to the questions.  Following are the questions and responses.
What newest technology are you using to make information on your website more available to the public?
According to the Acting CIO, the following paragraphs highlight examples of how NRC is using the newest technology to make its website more available to the public.  Common web programming techniques, such as Java and Javascript, are employed to facilitate use of NRC's website.  NRC also utilizes online forms, multimedia technology, and threaded newsgroups to make information available on its website.
The NRC has established a Public NRC Library [http://www.nrc.gov/NRC/ADAMS/index.html] which is a gateway to a large database of agency records at the agency public website. The entry point to this gateway includes a Javascript application to speed access to NRC's database.
Online forms are available to electronically collect public comments on NRC
draft technical reports [http://www.nrc.gov/NRC/wwwforms.html].
Another form available to the public allowed participants to register online
for the Regulatory Information Conference [http://www.nrc.gov/NRC/REACTOR/RIC/2000/index.html],
an annual agency event that is attended by a large number of NRC stakeholders.
The Students' Corner [http://www.nrc.gov/NRC/STUDENTS/students.html] is an informative, multimedia area at the NRC website to inform school children about the basic principles of nuclear energy.
The Nuclear Regulatory Legislation: 105th Congress [http://www.nrc.gov/NRC/NUREGS/SR0980/index.html]
is a Javascript-enabled interactive guide to those public laws that govern NRC's
regulatory mission.
The NRC is creating Java applications to enable licensees and other NRC stakeholders to download and dynamically analyze plant data for statistical purposes [http://www.nrc.gov/NRR/OVERSIGHT/ASSESS/index.html].
The Rulemaking Forum [http://ruleforum.llnl.gov/] gives the public the ability to submit comments on current NRC rulemaking initiatives and to view their comments and those of other participants.  In addition, the Technical Conference site [http://techconf.llnl.gov/] enables users to participate in "threaded newsgroups," which are online topical discussions in areas of interest to NRC stakeholders.
These examples demonstrate how the agency is utilizing the newest technology to provide more information to the public on NRC's website.
How are you complying with the Paperwork Reduction Act by using your website?
According to the Acting CIO, the NRC is ensuring the public dissemination of information through its website in a manner that ensures maximum public access consistent with the protection of privacy and security.  The site contains a wide variety of mission-related information.  For example, linked to the agency's homepage are sites in the reactor, materials, waste, and radiation protection and emergency response arenas.  The site also includes an alphabetical index to site contents, a collection of the Commission's activities, public meeting notices, interactive rulemaking information, employment information, and the agency telephone directory.
At the Public NRC Library site [http://www.nrc.gov/NRC/ADAMS/index.html],
the NRC provides the public with access to the Agencywide Documents Access and
Management System (ADAMS), which provides all publicly available records that
originate within or are received by the agency.
To reduce regulatory burden, the agency is conducting a pilot project with
three NRC licensees to permit encrypted communications via the web through an
Electronic Information Exchange gateway [http://www.nrc.gov/site-help/e-submittals.html].
Once fully implemented, the program should reduce the time it takes to collect
required information. This technology can also save the regulated community
and the agency substantial costs for the reproduction and mailing of voluminous,
multi-volume documents.
The agency stated that its website complies with Privacy Act requirements [http://www.nrc.gov/NRC/disclaim.html].
The site also contains a conspicuous Privacy Act statement that informs site
visitors that NRC makes no attempt to identify individual users or their usage
habits unless they are suspected of attempting to cause damage to the site.
These examples clearly indicate NRC's belief that its website is in compliance
with the Paperwork Reduction Act.
How are you complying with Section 508 of the Workforce Investment Act of 1998?  Is your site accessible to people with disabilities?
NRC provides all high-level web pages (the homepage itself and all web pages directly accessible from the homepage) in a textual format that meets the intent of Section 508 of the Workforce Investment Act of 1998.  On other pages, where practical and feasible, NRC makes content available in a textual format (or as a textual alternative to a graphically oriented page).  In some cases, however, the agency believes that it is not economically feasible to make the site fully compliant.  For example, if original material is of a graphical nature or is available only in paper, it is textually summarized at the website and presented in portable document format (PDF).  The resulting PDF file is not compatible with accessibility tools used by the disabled, such as Adobe's Acrobat Access plug-in.  Conversely, if the source material is available in electronic format, the resulting PDF files are compatible with such technologies.
The agency records in the Public NRC Library [http://www.nrc.gov/ADAMS/index.html], a database gateway accessed through the agency public website, are not accessible to people with disabilities.  Therefore, guidance is included at the site to direct people with special access needs to telephone and TTY numbers (for the visually impaired) to contact the NRC librarians in the Public Document Room for assistance.
A redesign effort of NRC's website is currently underway to develop a prototype.  Should NRC implement the website prototype, it expects it to be fully compliant with the Architectural and Transportation Barriers Compliance (Access) Board's, Electronic and Information Technology Accessibility Standards.  Currently, the Access Board's proposed standards are posted in the Federal Register for a 60 day public comment period.
Have you begun using or have you been using your website as a central repository for frequently used forms, files, and information?
The NRC homepage [http://www.nrc.gov] allows the public to
select an index which contains links to numerous NRC forms, files, and information.
More specifically, the Index of Forms for Soliciting Public Comment
[http://www.nrc.gov/NRC/wwwforms.html]
has links to over 20 online comment forms for individual reports and programmatic
areas. For example, these comment forms allow a user to submit comments or questions
dealing with NRC's Allegation Program or NRC's Draft Inspection Manual.
Another, more specific example of access to frequently used forms is for people
who are seeking jobs at NRC. They may now download and print employment application
forms from the NRC public website [http://www.nrc.gov/OP/vacancies/interface.htm].
NRC's website contains many pages and information collections of high interest to NRC stakeholders and the public.  For instance, the Plant Status Reports give current operating conditions at all U.S. commercial nuclear power plants each morning.  The Revised Reactor Oversight Process explains the purpose of NRC's revamped reactor oversight process. Additional information including the NRC Rulemaking Process, Public Meeting Notices, News Releases, and NRC Commission Activities can be accessed from NRC's website.  Also, nuclear material licensees may access related licensing files and information from the Reference Library [http://www.nrc.gov/NRC/reference.html].
Is your website easily searchable?  Do you have a search engine on it?
The Acting CIO believes that the NRC's website is relatively easy to search
using a site-wide and topical search engine [http://www.nrc.gov/NRC/search.htm]
and an alphabetical index to site topical content [http://www.nrc.gov/NRC/INDEX/index.html].
However, the Acting CIO has received reports from users that the current site design and organization of information are not optimal for locating information and that they have difficulty navigating the site.  As a result, the agency has embarked on a redesign effort of its public website.  Recognizing the need to continuously improve the site, NRC is holding meetings with its internal stakeholders to solicit their views on how to improve access to its information.  The agency also plans to meet with its external stakeholders to solicit their views.  In addition, NRC is in the process of issuing a redesign contract to bring in expert talent in usability testing and site analysis to create a prototype website.  This prototype will focus on improving public access to information in a manner consistent with the agency's strategic plan and legislation requiring the electronic dissemination of agency information to the public.  As part of this initiative, the agency has posted a Website Redesign Participation Form [http://www.nrc.gov/NRC/redesign.html] to seek volunteers to participate in the redesign effort.  The NRC plans to complete the website prototype and implementation by the end of this fiscal year.
What success do you feel your agency has made in terms of expanding and opening up your website to public use?
The Acting CIO reported that NRC's public website is rich in the content areas
routinely sought by agency stakeholders and others from throughout the world
as evidenced by the approximately 190,000 user sessions each month. To further
ensure that the site is as well known as possible, the agency lists its web
address in a wide variety of agency publications, such as the Citizen's
Guide to NRC Information, The Information Digest, The Annual
Report, the latest agency recruitment brochure, solicitations in the Commerce
Business Daily, notices in the Federal Register, and a variety
of other publications. The agency has provided its web address to a group of
libraries throughout the country that have agreed to host the NRC's historical
collection of documents on microfiche. These libraries are generally located
near nuclear power reactor and fuel fabrication facilities.
Additionally, NRC staff routinely provide specific site addresses in public meetings.  The NRC's website was also the subject of a formal presentation at this year's Regulatory Information Conference.  These examples are indicative of NRC's expansion and openness of its website to public use.
Are you using e-commerce when it is most efficient and practical?
The NRC's Division of Contracts and Property Management, Office of Administration,
reports that the agency has aggressively pursued e-commerce as a means of improving
the efficiency and effectiveness of its business activities. For example, in
order to simplify the purchasing and payment process, virtually all agency purchases
of $2,500 or less are made using a Government credit card under NRC's BankCard
program. Also, NRC made 98 percent of its payments to contractors electronically
through Electronic Funds Transfer in FY 1999. The NRC also posts all agency
business opportunities and solicitations on its website (http://www.nrc.gov/ADM/CONTRACT/contract.html).
In December 1999, NRC began testing its latest procurement innovation, Focused
Source Selection, which makes use of the Internet to provide a more streamlined,
interactive, and focused approach to the acquisition of management and support
services and products. In more detail, Focused Source Selection features
immediate access by all businesses to draft statements of work on NRC's Internet homepage;
opportunity for all businesses to compete through submittal of non-priced capability statement information which demonstrates satisfactory past performance of, and experience with, similar work;
selection of three top-ranked businesses to submit cost and technical proposals; and
negotiations focused on the top-ranked proposal which offers the best integrated technical/cost value to the agency.
Through the use of this procurement innovation and other e-commerce opportunities, the NRC hopes to achieve greater time savings, cost savings, and customer satisfaction.
Conclusion
We believe that these responses adequately demonstrate the NRC's focus with regards to its website and the use of e-commerce.  However, the agency, along with all Federal agencies, needs to remain aware and stay attuned with developments of Section 508 of the Workforce Investment Act of 1998.  Most notably, the agency will need to ensure that information technology procurements made on or after August 7, 2000, are in compliance with the Access Board's standards for Section 508.
Appendix I : Congressional Inquiry
Congressional Inquiry Letter
Appendix II : Glossary of Terms
Agencywide Documents
Access and Management
System (ADAMS)
the policies, processes, and software tools to manage unclassified,
official program and administrative records of lasting business value to
the NRC in an electronic rather than paperbased environment.
e-commerce
the exchange of goods and services, usually for money, using an Internet
website.
gateway
a combination of hardware and software that links systems.
Java
a programming language (that is embedded into HTML documents)
that can be used to create animations and interactive features on Internet
sites.
Javascript
a scripting language (that can interact with HTML) to enable
authors to design interactive Internet sites.
portable document
format (PDF)
the capturing of formatting information from a variety of
applications that makes it possible to distribute a document with its original
appearance preserved for viewing and printing on any system.
Appendix III : NRC Organizational Chart
Appendix IV : Major Contributors to This Report
Russell Irish
Staff Assistant for Planning and Reporting
Lynn Fort
Senior Computer Systems Analyst
Cheryl Miotla
Management Analyst
David Horn
Management Analyst
1.  NRC's Executive Council consists of the Executive Director
for Operations, the Chief Information Officer, and the Chief Financial Officer.
[an error occurred while processing this directive]
Thursday, March 29, 2012
[an error occurred while processing this directive]
Page Last Reviewed/Updated Thursday, March 29, 2012
Home
News Releases
Event Reports
ADAMS
Open Gov
Digital Government
Students & Teachers
Photos & Video
For Developers
About Us
Strategic Plan
Budget & Performance
Perf & Accountability Rept
History of the NRC
Career Opportunities
NRC Ethics
Agency Status
Contact Us
Popular Documents
Info Digest
Factsheets & Brochures
Forms
Electronic Submittals Application
NRC Reports – NUREG
NRC Regulations – 10-CFR
Inspection Reports
Plain Writing
Enforcement Actions
RULEMAKING
Stay Connected
Blog
Chat
Twitter
YouTube
Flickr
GovDelivery
RSS
Regulations.gov USA.gov Recovery FOIA No Fear EEO Inspector General  Site Map Accessibility Privacy Policy Site Disclaimer For Employees